CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing opposition, described below as follows:
No. 20-1761
IN THE SUPREME COURT OF THE UNITED STATES,
Secretary Pennsylvania Department of Labor And Industry, Petitioner
v.
Delaware River Joint Toll Bridge Commission, Respondent
REPLY BRIEF
Per the Court’s April 15, 2020 Order as well as normal process, by electronic
filing and 1 unbound and 40 bound copies by First-Class Mail, postage prepaid to:
Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001
Per the Court’s April 15, 2020 Order as well as normal process, by electronic
mail and 3 bound copies by First-Class Mail, postage prepaid to:
Jeffrey M. Scott, Esq.
ARCHER & GREINER
Three Logan Square
1717 Arch Street, Suite 3500
Philadelphia, PA 19103
(215) 279-9692
(Counsel for Respondent)

Dated: July 29, 2021

s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov

